Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




       MEDICARE COMPLIANCE
       REVIEW OF SOUTHCOAST
        HOSPITALS GROUP FOR
      CALENDAR YEARS 2010 AND
               2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                              Assistant Inspector General

                                                       August 2013
                                                      A-01-12-00523
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and data analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

Southcoast Hospitals Group (Southcoast) is a hospital system that includes three acute care
hospitals: Charlton Memorial Hospital, located in Fall River, Massachusetts; St. Luke’s
Hospital, located in New Bedford, Massachusetts; and Tobey Hospital, located in Wareham,
Massachusetts. Medicare paid Southcoast approximately $403 million for 38,056 inpatient and
405,847 outpatient claims for services provided to beneficiaries during calendar years (CY) 2010
and 2011 based on CMS’s National Claims History data.

Our audit covered $2,801,148 in Medicare payments to Southcoast for 338 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2010 and 2011 and consisted of 217 inpatient and 121 outpatient claims.

OBJECTIVE

Our objective was to determine whether Southcoast complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                  i
SUMMARY OF FINDINGS

Southcoast complied with Medicare billing requirements for 98 of the 338 inpatient and
outpatient claims we reviewed. However, Southcoast did not fully comply with Medicare billing
requirements for the remaining 240 claims, resulting in net overpayments of $1,106,581 for CYs
2010 and 2011. Specifically, 165 inpatient claims had billing errors, resulting in net
overpayments of $953,566, and 75 outpatient claims had billing errors, resulting in
overpayments of $153,015. These errors occurred primarily because Southcoast did not have
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors.

RECOMMENDATIONS

We recommend that Southcoast:

   •   refund to the Medicare contractor $1,106,581, consisting of $953,566 in net
       overpayments for 165 incorrectly billed inpatient claims and $153,015 in overpayments
       for 75 incorrectly billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

SOUTHCOAST HOSPITALS GROUP COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, Southcoast concurred with our findings and
recommendations with the exception of claims related to inpatient short stays. Southcoast stated
that it disagrees that it billed 41 claims incorrectly and intends to appeal those claims. We
maintain that these claims did not meet the medical necessity requirements for inpatient
admissions. Southcoast stated that it would process the necessary adjustments through its
Medicare contractor. Southcoast also stated it would continue to monitor and enhance its
internal controls, educate staff, and implement software to minimize the risk of errors.




                                               ii
                                                   TABLE OF CONTENTS

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Claims at Risk for Incorrect Billing ................................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Southcoast Hospitals Group ...........................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................5

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrectly Billed as Inpatient ........................................................................................5
          Incorrectly Billed Diagnosis-Related Group Codes ......................................................5
          Incorrectly Billed as Separate Inpatient Stays ...............................................................6
          Incorrect Discharge Status .............................................................................................6
          Manufacturer Credit for a Replaced Medical Device Not Reported .............................6
          Incorrectly Billed Source-of-Admission Code ..............................................................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained .........7
          Services Not Billable to Medicare Part B ......................................................................8
          Incorrectly Billed Number of Units ...............................................................................9
          Incorrectly Billed Outpatient Services With Modifier -59 ............................................9
          Incorrectly Billed Observation Services ......................................................................10

      RECOMMENDATIONS ....................................................................................................10

       SOUTHCOAST HOSPTIALS GROUP COMMENTS AND OFFICE OF INSPECTOR
         GENERAL RESPONSE ................................................................................................10

APPENDIXES

      A: RESULTS OF REVIEW BY RISK AREA

      B: SOUTHCOAST HOSPITALS GROUP COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources. In addition to the basic
prospective payment, hospitals may be eligible for an additional payment, called an outlier
payment, when the hospital’s costs exceed certain thresholds.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG

1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
identified these types of hospital claims using computer matching, data mining, and data analysis
techniques. Examples of the types of claims at risk for noncompliance included the following:

    •   inpatient short stays,

    •   inpatient and outpatient manufacturer credits for replaced cardiac medical devices,

    •   inpatient same-day discharges and readmissions,

    •   inpatient transfers,

    •   inpatient claims paid in excess of charges,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient psychiatric facility (IPF) emergency department adjustments,

    •   inpatient manufacturer credits for replaced orthopedic medical devices,

    •   outpatient drugs,

    •   outpatient claims billed with modifier -59 (indicating that a procedure or service was
        distinct from other services performed on the same day),

    •   outpatient claims billed during skilled nursing facility (SNF) stays,

    •   outpatient dental services,

    •   outpatient claims billed with observation services that resulted in outlier payments,

    •   outpatient claims billed prior to and during inpatient stays, and

    •   outpatient claims billed with evaluation and management services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). In addition, the Act precludes payment to any
provider of services or other person without information necessary to determine the amount due
the provider (§ 1833(e)).


                                                   2
The provider must furnish to the Medicare contractor sufficient information to determine
whether payment is due and the amount of the payment (42 CFR § 424.5(a)(6)). The Medicare
Claims Processing Manual (the Manual) requires providers to complete claims accurately so that
Medicare contractors may process them correctly and promptly (Pub. No. 100-04, chapter 1, §
80.3.2.2). The Manual states that providers must use HCPCS codes for most outpatient services
(chapter 23, § 20.3).

Southcoast Hospitals Group

Southcoast Hospitals Group (Southcoast) is a hospital system that includes three acute care
hospitals: Charlton Memorial Hospital, located in Fall River, Massachusetts; St. Luke’s
Hospital, located in New Bedford, Massachusetts; and Tobey Hospital, located in Wareham,
Massachusetts. Medicare paid Southcoast approximately $403 million for 38,056 inpatient and
405,847 outpatient claims for services provided to beneficiaries during calendar years (CY) 2010
and 2011 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Southcoast complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,801,148 in Medicare payments to Southcoast for 338 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2010 and 2011 and consisted of 217 inpatient and 121 outpatient claims.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 100
claims to focused medical review to determine whether the services were medically necessary.

We limited our review of Southcoast’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Southcoast for Medicare reimbursement.

We conducted our fieldwork at Southcoast during September and October 2012.




                                                 3
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   extracted Southcoast’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2010 and 2011;

   •   obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2010 and 2011;

   •   used computer matching, data mining, and data analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   judgmentally selected 338 claims (217 inpatient and 121 outpatient claims) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been canceled or adjusted;

   •   requested that Southcoast conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the itemized bills and medical record documentation provided by Southcoast to
       support the selected claims;

   •   used an independent medical review contractor to determine whether 100 selected claims
       met medical necessity requirements;

   •   reviewed Southcoast’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Southcoast personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Southcoast officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



                                                4
                               FINDINGS AND RECOMMENDATIONS

Southcoast complied with Medicare billing requirements for 98 of the 338 inpatient and
outpatient claims we reviewed. However, Southcoast did not fully comply with Medicare billing
requirements for the remaining 240 claims, resulting in net overpayments of $1,106,581 for CYs
2010 and 2011. Specifically, 165 inpatient claims had billing errors, resulting in net
overpayments of $953,566, and 75 outpatient claims had billing errors, resulting in
overpayments of $153,015. These errors occurred primarily because Southcoast did not have
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors.

Appendix A summarizes (by the risk areas we reviewed) the net overpayments identified in this
report.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Southcoast incorrectly billed Medicare for 165 of 217 selected inpatient claims, which resulted in
net overpayments of $953,566.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 110 of 217 selected inpatient claims, Southcoast incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation
services. Southcoast attributed the patient admission errors primarily to inadequate internal
controls over case management for monitoring short stays. As a result of these errors,
Southcoast received overpayments of $801,482. 3

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). In addition, “[N]o such payments shall be made to
any provider unless it has furnished such information as the Secretary may request in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid …” (the Act, § 1815(a)). The Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).


3
 Southcoast may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.


                                                         5
For 5 of 217 selected inpatient claims, Southcoast billed Medicare for incorrect DRG codes. For
these claims, Southcoast used a diagnosis code that was incorrect or unsupported by the medical
record to determine the DRG. Southcoast stated that these errors occurred because of inadequate
controls to identify claims for further review. As a result of these errors, Southcoast received
overpayments of $52,739.

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

     When a patient is discharged/transferred from an acute care Prospective Payment System
     (PPS) hospital, and is readmitted to the same acute care PPS hospital on the same day for
     symptoms related to, or for evaluation and management of the prior stay’s medical
     condition, hospitals shall adjust the original claim generated by the original stay by
     combining the original and subsequent stay onto a single claim.

For 13 of 217 selected inpatient claims, Southcoast billed Medicare separately for related
discharges and readmissions within the same day. Southcoast stated that this occurred because
of inadequate procedures to review readmissions. As a result of this error, Southcoast received
net overpayments of $48,394.

Incorrect Discharge Status

A discharge of a hospital inpatient is considered to be a transfer if the patient is readmitted the
same day to another hospital unless the readmission is unrelated to the initial discharge (42 CFR
§ 412.4(b)). A discharge of a hospital inpatient is also considered to be a transfer when the
patient’s discharge is assigned to one of the qualifying DRGs and the discharge is to home under
a written plan of care for the provision of home health services from a home health agency and
those services begin within 3 days after the date of discharge (42 CFR § 412.4(c)). A hospital
that transfers an inpatient under the above circumstances is paid a graduated per diem rate for
each day of the patient’s stay in that hospital, not to exceed the full DRG payment that would
have been paid if the patient had been discharged to another setting (42 CFR § 412.4(f)).

For 4 of 217 selected inpatient claims, Southcoast incorrectly billed Medicare for patient
discharges that should have been billed as transfers. For these claims, Southcoast should have
coded the discharge status either as a transfer to an acute care hospital or to home under a written
plan of care for the provision of home health services. However, Southcoast incorrectly coded
the discharge status to “home” or “left against medical advice.” Therefore, Southcoast should
have received the per diem payment instead of the full DRG payment. Southcoast stated that
these errors occurred because of inadequate procedures to correctly identify patient discharge
status. As a result of these errors, Southcoast received overpayments of $43,253.

Manufacturer Credit for a Replaced Medical Device Not Reported

Federal regulations require a reduction in the IPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full



                                                 6
credit for the cost of the device, or (3) the provider receives a credit equal to 50 percent or more
of the cost of the device (42 CFR § 412.89(a)). To correctly bill for a replacement device that
was provided with a credit, hospitals must use the combination of condition code 49 or 50
(which identifies the replacement device) and value code “FD” (which identifies the amount of
the credit, or cost reduction, received by Southcoast for the replaced device) (the Manual,
chapter 3, § 100.8).

For 1 of 217 selected inpatient claims, Southcoast received a reportable medical device credit
from the manufacturer for a replaced device, but did not adjust its inpatient claim with the proper
condition and value codes to reduce payment as required. Southcoast stated that this error
occurred because of inadequate controls to identify, obtain, and properly report credits from
device manufacturers. As a result of this error, Southcoast received an overpayment of $5,000.

Incorrectly Billed Source-of-Admission Code

CMS increases the Federal per diem rate for the first day of a Medicare beneficiary’s IPF stay to
account for the costs associated with maintaining a qualifying emergency department (42 CFR §
412.424). CMS makes this additional payment regardless of whether the beneficiary used
emergency department services (the Manual, chapter 3, § 190.6.4). However, the IPF should not
receive the additional payment if the beneficiary was discharged from the acute-care section of
the same hospital.

Source-of-admission “D” is reported by IPFs to identify IPF patients who have been transferred
to the IPF from the same hospital (the Manual, chapter 3, § 190.6.4.1). The IPF’s proper use of
this code is intended to alert the Medicare contractor not to apply the emergency department
adjustment.

For 32 of 217 selected inpatient claims, Southcoast incorrectly coded the source-of-admission for
beneficiaries who were admitted to the IPF upon discharge from Southcoast’s acute-care section.
Southcoast stated that the source-of-admission was miscoded because of human error in selecting
the admission source code. As a result of these errors, Southcoast received overpayments of
$2,698.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Southcoast incorrectly billed Medicare for 75 of 121 selected outpatient claims, which resulted in
overpayments of $153,015.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR §
419.45).




                                                  7
For services furnished on or after January 1, 2007, CMS requires a provider reporting no-cost or
reduced-cost devices under the OPPS to report the modifier “FB” and reduced charges on a
claim that includes a procedure code for the insertion of a replacement device if the provider
incurs no cost or receives full credit for the replaced device (CMS Transmittal 1103, dated
November 3, 2006, and the Manual, chapter 4, § 61.3). If the provider receives a replacement
device without cost from the manufacturer, the provider must report a charge of no more than $1
for the device.

Prudent Buyer Principle

“All payments to providers of services must be based on the reasonable cost of services ...” (42
CFR § 413.9). The CMS Provider Reimbursement Manual (the PRM), part 1, § 2102.1, states:

     Implicit in the intention that actual costs be paid to the extent they are reasonable is the
     expectation that the provider seeks to minimize its costs and that its actual costs do not
     exceed what a prudent and cost-conscious buyer pays for a given item or service …. If
     costs are determined to exceed the level that such buyers incur, in the absence of clear
     evidence that the higher costs were unavoidable, the excess costs are not reimbursable
     under the program.

Medicare providers are expected to pursue free replacements or reduced charges under
warranties for medical devices (the PRM, § 2103.A). Section 2103.C.4 provides the following
example:

     Provider B purchases cardiac pacemakers or their components for use in replacing
     malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full or
     partial credits available under the terms of the warranty covering the replaced equipment.
     The credits or payments that could have been obtained must be reflected as a reduction of
     the cost of the equipment supplied.

For 9 of 121 selected outpatient claims, Southcoast received full credit for replaced devices but
did not report the “FB” modifier and reduced charges on its claims (4 claims), or Southcoast did
not obtain credits for replaced devices that were available under the terms of the manufacturers’
warranties (5 claims). Southcoast stated that these errors occurred because of inadequate
controls to identify, obtain, and properly report credits from device manufacturers. As a result of
these errors, Southcoast received overpayments of $98,803.

Services Not Billable to Medicare Part B

SNFs are responsible for billing Medicare for most services, including outpatient hospital
services, provided to a SNF resident during a covered Part A stay (the Act, §§ 1862(a)(18) and
1842(b)(6)(E)). The interim final rule implementing the SNF consolidated billing requirement
states that outside suppliers, including outpatient hospitals, must bill according to the
consolidated billing provisions for services furnished to SNF residents and must be paid by the
SNF rather than by Medicare Part B.




                                                 8
The Act states: no payment may be made under part A or part B for any expenses incurred for
items or services “where such expenses are for services in connection with the care, treatment,
filling, removal, or replacement of teeth or structures directly supporting teeth ...” (section
1862(a)(12)).

The Manual states: “Diagnostic services (including clinical diagnostic laboratory tests) provided
to a beneficiary by the admitting hospital, or by an entity wholly owned or wholly operated by
the admitting hospital (or by another entity under arrangements with the admitting hospital),
within 3 days prior to and including the date of the beneficiary’s admission are deemed to be
inpatient services and included in the inpatient payment, unless there is no Part A coverage”
(chapter 3, § 40.3.B).

For 26 of 121 selected outpatient claims, Southcoast either billed Medicare for services that
should have been paid by the SNF (22 claims), billed Medicare for the treatment or removal of
teeth (3 claims), or separately billed Medicare for services that should have been included on a
Part A claim (1 claim).

Southcoast stated these errors occurred because it did not always have enough information to
identify the beneficiary’s point of origin, a limitation in its computer software prevented the
identification of claims for dental services, and inadequate controls over the identification of
claims that should be included on a Part A claim. As a result of these errors, Southcoast received
overpayments of $18,934.

Incorrectly Billed Number of Units

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service units
… is the number of times the service or procedure being reported was performed” (chapter 4, § 20.4).

For 8 of 121 selected outpatient claims, Southcoast submitted claims to Medicare with an incorrect
number of units. Southcoast stated that these errors occurred because of human error. As a result of
these errors, Southcoast received overpayments of $15,867.

Incorrectly Billed Outpatient Services With Modifier -59

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). In addition, the Manual states: “The ‘-59’ modifier is used to
indicate a distinct procedural service .... This may represent a different session or patient encounter,
different procedure or surgery, different site, or organ system, separate incision/excision, or separate
injury (or area of injury in extensive injuries)” (chapter 23, § 20.9.1.1(B)).

For 10 of 121 selected outpatient claims, Southcoast incorrectly billed Medicare for HCPCS codes,
appended with modifier -59, which were not distinct from other services or procedures billed on the
same claim. Southcoast stated that these errors occurred because hospital staff did not have adequate
training on the use of modifier -59. As a result of these errors, Southcoast received overpayments of
$14,285.




                                                    9
Incorrectly Billed Observation Services

The Manual states: “Observation services are covered only when provided by the order of a
physician or another individual authorized by State licensure law and hospital staff bylaws to
admit patients to the hospital or to order outpatient services” (chapter 4, § 290.1). In addition,
the Manual states: “Observation time begins at the clock time documented in the patient’s
medical record, which coincides with the time that observation care is initiated in accordance
with a physician’s order. Hospitals should not report as observation care, services that are part of
another Part B service, such as postoperative monitoring during a standard recovery period (e.g.,
4 to 6 hours), which should be billed as recovery room services” (chapter 4, § 290.2.2).

For 22 of 121 selected outpatient claims, Southcoast incorrectly billed Medicare for observation
hours resulting in incorrect outlier payments. For 21 claims, Southcoast overstated the hours of
observation because it did not allow for the normal recovery period expected postoperatively
and/or the medical records did not contain an order for the observation services. Southcoast
stated these errors occurred because of inadequate controls over the identification and billing of
observation hours. As a result of these errors, Southcoast received overpayments of $5,126.

RECOMMENDATIONS

We recommend that Southcoast:

   •    refund to the Medicare contractor $1,106,581, consisting of $953,566 in net
        overpayments for 165 incorrectly billed inpatient claims and $153,015 in overpayments
        for 75 incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

SOUTHCOAST HOSPITALS GROUP COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, Southcoast concurred with our findings and
recommendations with the exception of claims related to inpatient short stays. Southcoast stated
that it disagrees that it billed 41 claims incorrectly and intends to appeal those claims. We
maintain that the stays did not meet the medical necessity requirements for an inpatient
admission. Southcoast stated that it would process the necessary adjustments through its
Medicare contractor. Southcoast also stated it would continue to monitor and enhance its
internal controls, educate staff, and implement software to minimize the risk of errors.
Southcoast’s comments are included in their entirety as Appendix B.




                                                10
APPENDIXES
                                APPENDIX A: RESULTS OF REVIEW BY RISK AREA



                                                                                              Claims
                                                                             Value of       With Under
                                                             Selected        Selected         / Over-        Value of Net
                       Risk Area                             Claims          Claims          payments       Over-payments
Inpatient

Short Stays                                                    121              $756,523         104                $631,584
Manufacturer Credits for Replaced Cardiac Medical
                                                                10                292,589         7                  174,898
Devices
Same-Day Discharges and Readmissions                            19                174,137        13                   48,394

Transfers                                                       4                  73,804         4                   43,253

Claims Paid in Excess of Charges                                8                 285,748         2                   29,817

Claims Billed With High Severity Level Diagnosis-
                                                                10                153,905         3                   22,922
Related Group Codes
Psychiatric Facility Emergency Department
                                                                37                275,826        32                       2,698
Adjustments
Manufacturer Credits for Replaced Orthopedic Medical
                                                                8                 162,266         0                          0
Devices
Inpatient Totals                                               217            $2,174,798         165                $953,566

Outpatient
Manufacturer Credits for Replaced Cardiac Medical
                                                                12              $198,655          9                  $98,803
Devices
Drugs                                                           25                125,410         8                   15,867

Claims Billed With Modifier -59                                 16                 63,337        10                   14,285

Claims Billed During Skilled Nursing Facility Stays             22                 13,130        22                   13,130

Dental Services                                                 3                   5,451         3                       5,451
Claims Billed With Observation Services That Resulted
                                                                23                218,013        22                       5,126
in Outlier Payments
Claims Billed Prior to and During Inpatient Stays               6                   1,558         1                        353
Claims Billed With Evaluation and Management
                                                                14                    796         0                          0
Services
 Outpatient Totals                                             121              $626,350         75                 $153,015

              Inpatient and Outpatient Totals                  338            $2,801,148         240             $1,106,581

     Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
     outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
     billing errors we found at Southcoast Hospitals Group. Because we have organized the information differently, the
     information in the individual risk areas in this table does not match precisely with this report’s findings.
                      APPENDIX B: SOUTHCOAST HOSPITALS GROUP COMMENTS
                                                                                               Page 1 of 3




July 23, 2013

Mr. David Lamir
Acting Regional Inspector General for Audit Services
Office of Audit Services, Region I
JFK Federal Building
15 New Sudbury Street, Room 2425
Boston, MA 02203

RE: Audit Report Number A-01-12-00523, Medicare Compliance Review of Southcoast Hospitals Group
for Calendar Years 2010 and 2011

Dear Mr. Lamir:

Southcoast Hospitals Group (the “Hospitals”) is in receipt of the June 25, 2013 draft report provided by
the Department of Health and Human Services, Office of the Inspector General (OIG) entitled “Medicare
Compliance Review of Southcoast Hospitals Group for Calendar Years 2010 and 2011.” We appreciate
the opportunity to comment on the report.

The Hospitals are committed to compliance with all regulations governing Federal healthcare programs.
Through our Compliance Program and other day-to-day operations, we strive to monitor and enhance our
internal controls, educate staff, and implement software to minimize the risk of errors. However, and as
the OIG has acknowledged in its Compliance Guidance to Hospitals, the existence of internal controls and
other procedures cannot totally eliminate all errors in such a complex system.

Unless otherwise stated, the Hospitals generally agree with the OIG’s findings and will process the
necessary adjustments through its Medicare Administrative Contractor, NHIC. Responses to the
recommendations are set forth below.

Inpatient Incorrectly Billed as Inpatient (Short Stays): Of the 110 claims found to be in error by the
OIG, the Hospitals agreed that 69 were in error. The Hospitals have increased the case management
staffing levels, provided additional education, and hired a consultant to assist with the concurrent
determination of inpatient versus outpatient status.

To the extent applicable, and as noted by the OIG in the Report, the Hospitals intend to bill Medicare Part
B for all services that would have been reasonable and necessary had the beneficiary been originally
designated as an outpatient rather than admitted as an inpatient.
                       APPENDIX B: SOUTHCOAST HOSPITALS GROUP COMMENTS
                                                                                                   Page 2 of 3

The Hospitals respectfully disagree with the assertion of inappropriateness for the remaining 41 claims,
and intend to fully appeal these claims. The prevailing reason for the disagreement is that the Hospitals
believe that denials based on a retrospectively determined duration of hospitalization are inconsistent with
CMS’ intent and written guidance in the Medicare Benefit Policy Manual, Chapter 1, Section 10:
“Admissions of particular patients are not covered or noncovered solely on the basis of the length of time
the patient actually spends in the hospital.” Section 10 goes on to say that “Generally, a patient is
considered an inpatient if formally admitted as inpatient with the expectation that he or she will remain
at least overnight and occupy a bed even though it later develops that the patient can be discharged or
transferred to another hospital and not actually use a hospital bed overnight.”

Inpatient Incorrectly Billed Diagnosis-Related Group Codes: In addition to continuing education of
the coding staff, the Hospitals have implemented a software tool to review all Medicare claims. The tool
identifies accounts with certain criteria that may lead to incorrect coding prior to billing. Included in the
criteria are high severity DRGs as well as accounts with DRG payment in excess of charges.

Inpatient Incorrectly Billed as Separate Inpatient Stays (Same Day Readmissions): The Hospitals
have implemented a process change wherein Case Management makes the clinical decision as to whether
the first and second admissions are related and notifies the Billing Department.

Inpatient Incorrect Discharge Status: The Hospitals and case management have implemented enhanced
controls to properly determine discharge status.

Inpatient Manufacturer Credit for a Replaced Medical Device Not Reported: The Hospitals have
implemented a process among the materials management, clinical, and billing departments to capture
claims related to medical devices and are requiring the manufacturers’ representatives to provide reports
on the identification and analysis of warranties as well as refund status on all explanted devices.

Inpatient Incorrectly Billed Source of Admission Code: Enhancements were made to the billing
system to better define source of admission for psychiatric patients.

Outpatient Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained: The
Hospitals have implemented a process among the materials management, clinical, and billing departments
to capture claims related to medical devices and are requiring the manufacturers’ representatives to
provide reports on the identification and analysis of warranties as well as refund status on all explanted
devices.

Outpatient Services Not Billable to Medicare Part B: There were 26 erroneous claims in three areas:
skilled nursing consolidated billing (22); dental services (3); and one diagnostic claim billed within three
days of an inpatient stay. The Admissions staff has been trained to confirm with nursing homes the
patients’ Medicare status upon admission. When there is doubt, the nursing home will be billed prior to
Medicare. Claims with dental services will be stopped and reviewed prior to billing. The Hospitals
believe that the one diagnostic claim that was billed within three days of the inpatient stay was an isolated
incident.
                      APPENDIX B: SOUTHCOAST HOSPITALS GROUP COMMENTS
                                                                                              Page 3 of 3

Outpatient Incorrectly Billed Number of Units: An assessment of this issue determined that user error
was to blame for duplicate orders and the resulting overbilling of pharmacy units. The Hospitals re-
educated the applicable staff and are implementing on-going monitoring processes.

Outpatient Incorrectly Billed Services With Modifier-59: The Hospitals provided education on the
topic of modifier usage, particularly modifier-59, not only to the coding department but to ancillary
departments that typically utilize this modifier. Continuous auditing and monitoring processes are being
implemented.

Outpatient Incorrectly Billed Observation Services: The Case Management Department reviews all
scheduled procedures with clinical staff to ensure correct assignment of
status:inpatient/outpatient/observation. Order sets were reviewed in procedural areas and language was
revised relative to patient status.

Thank you for the opportunity to respond to this OIG report. We appreciate the coordination, guidance,
and professionalism afforded to us by the OIG audit team during this process.

Sincerely,

/Laura Macaluso/

Laura Macaluso, CPA, MBA, CCE
Executive Director of Corporate Compliance & Internal Audit
Southcoast Health System
101 Page Street
New Bedford, MA 02740
www.southcoast.org
